Case No.

IN THE

Supreme Court of the Anited States

 

CITIZENS FOR FAIR REPRESENTATION; et al.,
Petitioners,

Vv.

SECRETARY OF STATE ALEX PADILLA,

Respondent.

On Petition for Writ of Certiorari to the

United States Court of Appeals for the Ninth Circuit.

CERTIFICATE OF SERVICE
i

Scott E. Stafne, Counsel of Record
239 N. Olympic Avenue
Arlington, WA 98223
Tel: 360.408.8700
Scott@Stafnelaw.com

 

a

‘Church of the Gardens Press
www churchofthegardens.org

Sagat

 

 
CERTIFICATE OF SERVICE
I, Scott E. Stafne, counsel for Citizens for Fair Representation, hereby certify
that on this 13th day of October 2020, I caused to be served the PETITION FOR
WRIT OF CERTIORARI to provide Notice of Placement on the U.S. Supreme Court
Docket by electronic mail and by U.S. First Class Mail postage prepaid, addressed to

the following counsel:

Anna T. Ferrari

Supervising Deputy Attorney General
California Department of Justice

455 Golden Gate Avenue, Suite 11000
San Francisco, CA 94102

Direct: 415-510-3779

Email: Anna.Ferrari@doj.ca.gov

Counsel for Alex Padilla, Secretary of State of California, Appellee-Respondent

DATED this 18th day of October, 2020, in Arlington, Washington.

eve
By; c
Scott E. Stafne, Counsel of Record
239 N. Olympic Avenue
Arlington, WA 98223
Tel: 360.403.8700

Scott@Stafnelaw.com

 
